<html>
<title> - U.S. POLICY TOWARD HAITI</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]


 
                        U.S. POLICY TOWARD HAITI

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                       TUESDAY, NOVEMBER 9, 1999

                               __________

                           Serial No. 106-86

                               __________

    Printed for the use of the Committee on International Relations






  Available via the World Wide Web: http://www.house.gov/international 
                               relations

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
63-500 CC                   WASHINGTON : 2000





                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
          Caleb McCarry, Professional Staff Member and Counsel
                     Jill N. Quinn, Staff Associate



                            C O N T E N T S

                              ----------                              

                               WITNESSES

                                                                   Page

The Honorable Mike DeWine, a United States Senator from the State 
  of Ohio........................................................     3
The Honorable Bob Graham, a United States Senator from the State 
  of Florida.....................................................     6
The Honorable Porter Goss, a Representative in Congress from the 
  State of Florida...............................................    10
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan.....................................    13
The Honorable Peter Romero, Acting Assistant Secretary for 
  Western Hemisphere Affairs, Department of State................    27

                                APPENDIX

Prepared statements:

The Honorable Benjamin A. Gilman, a Representative in Congress 
  from New York and Chairman, International Relations Committee..    38
Senator Mike DeWine..............................................    40
Senator Bob Graham...............................................    44
Representative Porter Goss,......................................    48
Representative John Conyers, Jr.,................................    55
Representative Charles B. Rangel (submitted in lieu of 
  appearance)....................................................    59
Ambassador Peter Romero, Acting Assistant Secretary for Western 
  Hemisphere Affairs, Department of State........................    64

Additional material submitted for the record:

Haiti Trip Report of September 10, 1999, submitted by Rep. 
  Conyers, Jr....................................................    72 



                        U.S. POLICY TOWARD HAITI

                              ----------                              


                       Tuesday, November 9, 1999

                  House of Representatives,
              Committee on International Relations,
                                           Washington, D.C.
    The Committee met, pursuant to call, at 10:10 a.m. in room 
2172, Rayburn House Office Building, Hon. Benjamin A. Gilman 
(Chairman of the Committee) presiding.
    Chairman Gilman. The Committee will come to order. This 
morning we will review the U.S. policy toward Haiti. We called 
this hearing to examine what is happening in Haiti today and 
shed some light on where we need to go from here to advance 
pluralism and foster economic growth in Haiti. Of keen concern 
are the prospects for free and fair parliamentary and local 
elections that are anticipated to be held on March 19th and 
concerns over efforts to undermine and to politicize the 
Haitian National Police.
    In January, I traveled to Haiti with several of my 
colleagues. President Rene Preval had just dissolved 
parliament, deepening Haiti's protracted political crisis. We 
all agreed that the best way out of that crisis was a sound and 
fair election. Several positive developments led us to believe 
that a good election would be possible. President Preval issued 
a public statement that ``very quick elections under good 
conditions are the only solution to the existing political 
crisis.''
    State Secretary for Public Security Robert Manuel began 
negotiations at Preval's behest with the opposition parties. On 
March 17th, President Preval created a politically balanced 
provisional electoral council. With supporting leverage from 
the Dole Amendment restrictions, a transparent settlement of 
the disputed 1997 elections was also achieved. Most 
importantly, we began to see leaders from Haiti's civil 
society, ranging from grass roots to religious to business 
organizations, working together across ideological and class 
lines.
    Our hopes began to fade, however, when a May 28th rally 
organized by a broad spectrum of civil society groups was 
attacked and broken up by Lavalas Family party protesters. The 
Haitian National Police failed to protect the citizens who 
gathered that day to exercise their rights to freedom of 
assembly and speech.
    This year has seen a distressing escalation of common crime 
and violent acts. On November 2nd, Amnesty International stated 
that ``A series of violent events in Haiti have led to fears 
that the climate of respect for human rights which the country 
has been endeavoring to promote in recent years is 
progressively deteriorating.''
    There is a long tradition of undemocratic rule in Haiti. 
Recent events led us to fear that Haiti is experiencing a 
return to past practices. It will only serve to create violence 
and misery in that impoverished nation. The departure of Robert 
Manuel raises real concerns about the future independence and 
professionalism of the Haitian National Police. The October 8th 
murder of Colonel Jean Lamy followed by the October 14th armed 
attack on a director of the HNP's Judicial Police, the unit 
responsible for investigating Lamy's killing, are very bad 
signs.
    Our Ambassador to Haiti, Timothy Carney, underscored the 
real issue recently, stating: ``What is currently important is 
that no one political party, no faction or group gain control 
of your police. I emphasize that the politization of the police 
is unacceptable.''
    We must not abandon our efforts to help the Haitian people. 
We should continue to work to alleviate the underlying 
conditions that plague Haiti. But Haitian leaders must meet 
their responsibilities as well. In order for there to be good 
elections which the United States can support in good 
conscience, there must be freedom of speech and assembly, and 
an apolitical police force to protect those essential rights. 
Moreover, the Provisional Electoral Council, which has been 
trying to organize the elections, civil society, and political 
parties should not be the object of crude, antidemocratic 
attacks.
    On October 24th, protesters violently broke up an official 
function of Haiti's Provisional Electoral Council, the CEP. We 
were appalled that the Haitian National Police again failed to 
fulfill their responsibility, in this case to protect the CEP. 
When former President Jean-Bertrand Aristide's government was 
overthrown, our Nation, with our support, spared no effort to 
restore elected, civil government to Haiti. This unacceptable 
outrage was committed in Mr. Aristide's name. That is 
disappointing to us all.
    I would like to say a word about our Ambassador to Haiti, 
Timothy Carney. It is regrettable that the State Department 
declined to allow him to be available for this hearing. 
Ambassador Carney has earned our respect for his forthrightness 
and his professionalism. Among other accomplishments, we credit 
him with leading the effort to put good elections on track last 
Spring. We would have welcomed his views on how to keep them on 
track today.
    We thank Senator DeWine of Ohio, Senator Bob Graham of 
Florida, Representative Porter Goss of Florida, Representative 
Charles Rangel of New York, and Representative John Conyers of 
Michigan for accepting our invitation to testify before this 
Committee. While we may disagree on some of the issues, each of 
these elected representatives has demonstrated a consistent 
interest in the welfare of our hemisphere's poorest country.
    I would like to ask our Ranking Minority Member, Mr. 
Gejdenson, if he has any opening remarks, and then we will 
withhold opening remarks in order to enable our Senators to get 
back for a roll call that they have waiting for them.
    Mr. Gejdenson. I will hold my opening remarks until after 
the Senators and our other House Members have given their 
testimony.
    Chairman Gilman. At this point, I would like to note that 
Senator Graham made a special effort to be with us today, 
because it is his birthday. Congratulations, Senator Graham. 
You look younger than ever. We welcome having you with us. I'm 
also pleased to welcome Senator DeWine, from Ohio, and a former 
Member of this Committee. Welcome Senator DeWine.

STATEMENT OF THE HON. MIKE DeWINE, A UNITED STATES SENATOR FROM 
                       THE STATE OF OHIO

    Senator DeWine. Thank you very much. It is great to be back 
with the Committee on which I served for 6 years when I was in 
the House. I want to thank you for convening this hearing 
today. The country of Haiti and its people are really at a 
crossroads. I thank you for holding this hearing because 
although Haiti is not of strategically great importance to the 
United States, probably never will be, it is close to us. It is 
in our back yard. What happens in Haiti is very, very important 
to us as a country, and we need to be interested in Haiti.
    I am no expert on Haiti, but I follow the events affecting 
this country closely, and have traveled there seven times in 
the last 5 years. I believe that there is some good news that 
comes out of Haiti. I would like to talk first about the good 
news, and then the bad news.
    First the good news. Perhaps, Mr. Chairman, the best news 
that comes out of Haiti comes from the thousands of individuals 
from the private, non-governmental organizations--members of 
churches, church congregations, religious people--who are in 
Haiti every day trying to make a difference. These are 
Haitians, these are U.S. citizens and others. They have helped 
the poor; they have helped the orphaned, the starving, the 
elderly and the sick. Each time I have visited Haiti, I have 
been inspired by their heroic deeds.
    Second, the U.S. Government has played a major humanitarian 
role in Haiti, and we continue to do so; and we must continue 
that. We have been able to continue to feed thousands of orphan 
children through Public Law 480. Also, our AID mission in Haiti 
is developing a local association to serve as advocates for 
Haitian children and to create a network for orphanages to 
share ideas and resources, and this must continue.
    Third, Mr. Chairman, we have made tremendous progress in 
training the Haitian police. We literally started with nothing. 
Although the Haitian police have had problems, and will 
continue to have problems, these problems were not unexpected. 
We have done something that has probably not been done on this 
magnitude or scale in the history of the world which, 
basically, we took 18-, 19-, 20-year-old kids and turned them 
into a police force.
    Fourth, Mr. Chairman, I have been encouraged by the success 
of some USAID programs to promote growth in Haiti's 
agricultural sector. We haven't done this enough, frankly. We 
need to do more of it. But what we have done, we have seen some 
progress. We have worked directly with farmers to improve 
techniques in the fields, where they learn--from our example--
how to improve their farming practices to yield more productive 
crops. We have also, just as importantly Mr. Chairman, worked 
to help form marketing cooperatives in Haiti to enable farmers 
to get their products to the marketplace without having to go 
through the traditional Haitian choke-hold that is controlled 
by just a few families.
    Fifth, Mr. Chairman, Haiti has taken some small steps 
toward business privatization--not as much as we would like to 
have seen--but we have seen some in the area of flour and 
cement and enterprises, and also in the area of cellular 
phones.
    Finally, Mr. Chairman, we have really not seen the kind of 
massive exodus of Haitian refugees that we have witnessed 
earlier, and that is good news as well.
    But let me now turn to the bad news. The Haitian economy 
remains stagnant. Because a significant proportion of economic 
activity is really from the underground markets, it is very 
difficult to determine exactly where the economy is in Haiti 
and to see exactly how far it has fallen. Haiti remains the 
poorest nation in our hemisphere. We use the figure of $250 per 
capita per year, but no one really knows the real figure. What 
growth there is, Mr. Chairman, I believe, from my trips to 
Haiti, comes from two sources: one is the underground economy, 
and the other is from foreign remittances, which are very 
significant in Haiti's economy.
    Mr. Chairman, the political situation is even worse. The 
phrase ``Haitian government'' is tragically today an oxymoron. 
The government has virtually ceased to function. The current 
political crisis is rooted in the April 1997 parliamentary and 
municipal elections. Since January 1999, President Preval has 
been ruling by decree. Elections have been postponed three 
times, and now are scheduled for March of the year 2000. With 
former-President Aristide running for president, and he and his 
followers in the Lavalas Family Party campaigning to hold one 
comprehensive presidential and legislative election in November 
or December, 2000, it is unlikely, I believe, that March 
elections will occur. Political intimidation is definitely on 
the rise.
    Mr. Chairman, absent a stable and democratic government in 
place, Haiti has no hope of achieving real and lasting 
economic, political, and judicial reforms. Haiti is finding 
itself stuck in a vicious cycle of despair. It is a cycle in 
which political stalemate thwarts government and judicial 
reforms, which in turn discourages investment and 
privatization. Caught in a cycle like this, the economy stands 
to shrink further and further unless changes are made.
    Mr. Chairman, earlier I noted the limited progress of the 
Haitian National Police. However, very real threat does exist 
that the police force will become politicized as a result of 
the October 7, 1999, forced resignation of Secretary of State 
for Public Security Bob Manuel. Since then, supporters of 
former-President Aristide have harassed the Police Director, 
General Pierre Denize, calling for his dismissal. That has 
contributed to the erosion of public confidence in the police 
force, which adds to the country's instability. The Haitian 
people's confidence in their country's judicial system is also 
fueled by their belief that the legal system is corrupt and for 
sale to the highest bidder.
    It is no surprise that with a law enforcement far from 
effective, Haiti has become a popular transit stop for drug 
traffickers. This will continue, Mr. Chairman, and frankly what 
we have to do is to work outside the borders of Haiti on the 
high seas to make a difference there, at the same time that we 
work with the Haitian National Police.
    Why do we care about Haiti, Mr. Chairman? We care because 
this tiny country lies roughly 550 miles from the U.S. coast of 
Florida. It is part of our hemisphere, and what happens in this 
hemisphere affects us; and we should care about it. We cannot 
ignore Haiti. Let's not forget that we already have a lot of 
money invested in Haiti. The price we pay for failing to pay 
attention will take several forms. One may be another massive 
refugee crisis, and certainly we will see drug trafficking 
continuing through Haiti. That is why we must care about Haiti.
    Mr. Chairman, the planned withdrawal of the U.S. military 
forces from Haiti should not represent an end to our 
involvement in Haiti. Our Nation can still play a constructive 
role, in partnership with the Haitian people, to ensure that 
the many troubles inflicting this small island do not pass a 
point where they can not be reversed.
    Mr. Chairman, first we must continue efforts aimed at 
democracy-building in Haiti. This means we must promote free 
markets and the rule of law. That also means that we must 
provide Haiti with electoral assistance so that free and fair 
elections can take place. However, Mr. Chairman, the United 
States must not support any election, either politically or 
financially, if certain criteria are not met.
    We must insist that the parliamentary elections are held 
separately from the presidential elections this year. We must 
pressure the Haitian government to allow the international 
community and a delegation of world leaders to take a lead role 
in the upcoming election. We must urge the Haitian government 
to reform the electoral and political party laws to level the 
playing field. We must insist that they have voter registration 
lists, voter cards, access to state media, and access to state 
financial resources. We must also ensure that the police do not 
become politicized in favor of certain factions or parties at 
the expense of others. Finally, we must provide funding to 
continue with the political party-building process in Haiti.
    Mr. Chairman, we must make it clear that our financial 
assistance for these elections is truly contingent on the 
above.
    Second, until a functioning government is in place, any 
assistance we provide needs really to go through the private 
sector. This is the only way that we can ensure that aid gets 
directly to the people. Third, we must fight drug trafficking 
through Haiti with a continued offshore U.S. presence as well 
as working with the Haitian police. Fourth, the United States 
should expand agricultural assistance through nongovernment 
organizations.
    We have seen some success with these USAID programs, and I 
have personally visited a number of them myself, Mr. Chairman. 
Efforts aimed at teaching the Haitian farmers about land 
preservation, natural resource depletion, and efforts to work 
directly with the farmers have the most hope of preventing 
Haitians from abandoning agriculture for urban areas like Port-
au-Prince.
    Finally, Mr. Chairman, a U.S. role in Haiti must ensure 
that humanitarian and food assistance continues to reach people 
and especially the children. We have, I believe, a moral 
obligation to not let the orphan children and other needy 
children in Haiti, the elderly, and others starve.
    To conclude, Haiti cannot progress until its political 
leaders and the elite class take responsibility for their 
situation and commit to turning things around. I truly believe, 
Mr. Chairman, that we will not see Haiti turn around until two 
things happen: First, the political leadership of the country 
decides that it is in their interest to make things happen; and 
second--and maybe this is even more important--the political 
elite in Haiti, the 1 or 2 percent, the educated people, the 
people who have truly, historically been the elite, they must 
decide that it is in their best interest that Haiti change. 
They must decide that it is no longer in their interest to see 
chaos, to see uncertainty, to see the status quo.
    I truly believe that there are many people in Haiti in the 
elite who believe that that is the only ocean they can swim in, 
and that they will be better off if there is chaos, 
uncertainty, and no change. Until this elite in Haiti changes 
its perception and truly understands that Haiti needs to 
change, it will be very difficult for change to really take 
place in Haiti.
    Mr. Chairman, I appreciate your indulgence with my time. I 
appreciate you giving us the opportunity to be here. Thank you 
for holding this hearing on Haiti.
    Chairman Gilman. Thank you, Senator DeWine, for your 
extensive and very thorough remarks.
    [The prepared statement of Senator DeWine appears in the 
appendix.]
    Chairman Gilman. We now turn to Senator Graham.

STATEMENT OF THE HON. BOB GRAHAM, A UNITED STATES SENATOR FROM 
                      THE STATE OF FLORIDA

    Senator Graham. Thank you, Mr. Chairman, Congressman 
Gejdenson, and Members of the Committee. Before I start, Mr. 
Chairman, I would like to take the privilege of commenting on 
the magnificent portrait of our friend, Congressman Dante 
Fascell. It was 40 years ago this year that I was an intern for 
Congressman Fascell. Most of the values and concepts of what it 
means to be a legislator I gained from that great man, and his 
wisdom still pervades this Committee and this Congress; and it 
is so reassuring to see his presence with us today.
    Chairman Gilman. Thank you, Senator Graham. We certainly 
miss our former Chairman, and he made a great contribution to 
our Nation and to this Committee. Please proceed.
    Senator Graham. Mr. Chairman, I am very pleased to join my 
colleagues in appearing before you today to testify on the 
current political situation in Haiti. I appreciate the long 
efforts that you and the Members of this Committee have focused 
on the situation in Haiti and your efforts to bring democracy 
and prosperity to that country.
    Mr. Chairman, I am very troubled by recent events in Haiti, 
particularly the disruption of the meeting of the Provisional 
Electoral Council, the CEP, on October 24th of this year. On 
that date, factions associated with the Fanmi Lavalas broke up 
a meeting by throwing urine on members of the Provisional 
Electoral Council. No democracy can function with this type of 
direct assault on its fundamental institutions.
    In light of these events, some suggest that the situation 
in Haiti is without hope, beyond our ability to influence. I am 
here to say that turning our backs on Haiti is not an option. 
We have learned this lesson repeatedly during this century. We 
will always be drawn back to Haiti by a combination of 
historical ties, humanitarian instincts, and our own national 
interest. Although it is difficult to remain engaged, as the 
country that has the greatest influence on Haiti the United 
States must use that influence in a positive way.
    I remember, as do you, the scenes of Haitian refugees awash 
in the seas in their small boats. I remember the scenes of 
Haitian ships being searched and found to be laden with illegal 
drugs destined for our Nation's streets. These are the images 
of reality that we will once again be forced to face if we 
ignore current events in Haiti.
    I am an optimist. I have known the quality of the Haitian 
people--their strong, strong family values, their dedication to 
personal, family and community improvements, the beauty and 
value of their art and culture. These are the foundations for 
democratic reform on which a stable society with economic 
opportunity and prosperity may be built.
    Mr. Chairman, as a Senator from Florida, I know first--hand 
the importance of strengthening democracy and economic 
development in Haiti, as well as the consequences of failure in 
these regards. Indeed, the United States has been committed to 
this objective and has led international efforts to help Haiti. 
Since 20,000 U.S. troops landed to restore democracy to Haiti 
in 1994, we have provided significant humanitarian, economic, 
and security assistance. In spite of our efforts, Haitian 
democracy again finds itself at a crossroads. Parliamentary and 
municipal elections that can resolve the political crisis in 
Haiti, originally scheduled for later this month, have been 
postponed until March of 2000. I cannot overstate the 
importance of holding these elections in the Spring of 2000, 
and assuring that they are open and credible elections.
    Violence, election fraud, and low voter turnout have 
plagued Haitian elections in the past. In fact, there were 
problems with the 1997 elections--in which voter turn out was 
about 5 percent--that escalated the current political crisis in 
Haiti. Only by holding free and fair elections in a secure 
environment where all parties are able to participate openly 
can Haiti move beyond its current stalemate. Ending this 
stalemate will also allow for additional economic assistance 
from the United States and the international community. It is a 
prerequisite of improving the life of ordinary Haitians.
    Let me suggest several steps that I believe must be taken 
to ensure that the upcoming elections can take place in an 
environment that will engender trust in the system and allow 
Haiti to move forward. First, during the period leading up to 
the elections in Haiti, although our permanent military force 
is small and will soon transition to an expeditionary presence, 
we should continue military efforts to help the Haitian people. 
This force should be engaged in worthwhile civic projects such 
as construction of schools, roads, and medical clinics 
throughout the country.
    Second, we must do what we can to assure that there is a 
secure environment in which these elections can take place. 
Providing a significant number of international observers will 
help accomplish this objective. It is important that these 
observers be deployed early in the electoral process, not just 
arrive a couple of days before the election itself.
    Third, the international community must provide support for 
these elections. I know that the United States and other 
nations have already provided significant funding to prepare 
for the elections. Additional assistance will be available only 
if the conditions for a free and fair election exist. As I 
mentioned at the outset, there have been several very troubling 
incidents over the last few weeks and months that lead me to 
question whether these conditions do, in fact, exist. Some 
would suggest that, under current conditions, we should not be 
a party to an election in Haiti, but we cannot afford to walk 
away. The world, in particular the United States, stands ready 
to help the Haitian people build their democracy.
    Fourth, the Provisional Electoral Council has done an 
excellent job of resolving the disputed 1997 elections. During 
my recent visit to Haiti, I met with several of the members of 
the CEP. They have proven that they are willing to do what is 
right, what is courageous, what is best for the people of 
Haiti. They deserve our support and the support of the Haitian 
political parties. The reassuring and compelling statements of 
our Ambassador to Haiti, Tim Carney, emphasized the importance 
of the CEP.
    Political parties are taking risks to participate in this 
election, and they deserve our support. Without it, they will 
be forced underground. We need to find ways to assure that they 
are able to assemble freely and have their platforms heard. The 
United States and the international community must help the 
political parties directly. I applaud the efforts of the 
National Endowment for Democracy, the International Republican 
Institute, and the National Democratic Institute as they have 
worked to advance democracy in Haiti. Their efforts are good 
examples of how non-governmental organizations become engaged 
in promoting democratic reform where direct involvement by the 
U.S. State Department and other agencies would be 
inappropriate.
    Mr. Chairman, I would suggest these would be important 
steps that the United States and the international community 
can take to assure that credible elections will be held. But 
the Haitians themselves have the greatest responsibility to 
assure that this occurs. All political parties should publicly 
commit to denouncing political violence, including allowing all 
parties to publicly campaign without intimidation. This 
commitment must include actively restraining any elements or 
supporters from participating in violence or intimidation. 
President Preval and former President Aristide have a special 
responsibility to use their status and trust that the Haitian 
people have placed in them to restrain the forces of evil. I 
call on them to work with the international community to ensure 
that these elections go forward in a secure environment. Mr. 
Chairman, in many respects their credibility depends on this, 
and they will be held accountable for their success or failure.
    It is essential to the Haitian democratic process that 
there are indeed two separate elections in the coming 14 
months. We have already witnessed considerable delays. Any 
additional delay will put international support at great risk. 
Credible parliamentary and municipal elections must occur to 
provide confidence in the electoral system for the presidential 
elections in November of 2000 to be viewed as credible. It is 
also important that Haiti develop a strong and independent 
legislative branch of government. This can help it to survive 
through periods of instability and provide an outlet for those 
who may disagree with an elected executive.
    Some have argued that the March election should be delayed 
and folded into the presidential election. This would have 
ominous and negative implications. It would mean for almost 3 
years the country has been without a stable parliament. It will 
mean that the economy of the country will continue to be denied 
international financial aid that requires legislative action by 
the Haitian Parliament before it can move forward.
    Finally, Mr. Chairman, and I appreciate your indulgence, 
the United States has developed a very effective military, a 
military that has proven its ability to intervene in conflicts 
and provide a secure environment. We have done this in Haiti, 
Bosnia, and now in Kosovo. Unfortunately, we have not been 
equally successful in providing long-term political and 
economic stability following our military interventions. The 
military's success is the result of many years of thoughtful 
planning, training, and resourcing. The follow-up economic and 
political activities have none of these qualities. They are 
characterized by their ad hoc nature and lack of sustainable 
and credible initiatives, and a particular lack of emphasis on 
carrying out an effective economic recovery plan.
    These comments are by no means limited to Haiti. In the 
current issue of Foreign Affairs, there is an article, Mr. 
Chairman, entitled ``A European New Deal for the Balkans.'' I 
would just read one sentence from the second paragraph, ``The 
basis for long-term stability and non-nationalistic politics in 
southeastern Europe lies in its economies, and here the picture 
is bleak.'' Exactly that same sentence could be written 
substituting Haiti for southeastern Europe.
    Mr. Chairman, operations in Bosnia and Kosovo have been 
characterized by successful military as the first chapter, 
followed by failed economic and political chapters which left 
us in situations no better than those which we originally 
encountered. Mr. Chairman, I would recommend to the Members of 
the House of Representatives as a step which might be taken to 
strengthen our economic influence in Haiti and other countries 
in the Caribbean basin--the Caribbean Basin Initiative 
legislation which was passed by a 3 to 1 vote in the Senate 
last week--I would hope that favorable and expedited attention 
could be given to that in the House of Representatives. I 
believe this would be a significant step toward the United 
States overcoming this history of failed economic response 
after successful military intervention.
    Mr. Chairman, during my last visit to Haiti in June of this 
year, I flew over the north coast and observed scores of small 
boats under construction. These boats could be a warning of 
things to come, or simply a reminder of past problems. We 
already know the price of failure in Haiti because we have paid 
it for most of the 20th Century. We must use this opportunity 
to enhance democracy in Haiti so that our children and 
grandchildren will not have to continue paying the price of 
failure into the 21st Century. Thank you, Mr. Chairman.
    [The prepared statement of Senator Graham appears in the 
appendix.]
    Mr. Ballenger. [Presiding.] Senator Graham, I would like to 
thank both you and Senator DeWine for being here. I don't know 
how much time you have.
    Senator Graham. Mr. Chairman, unfortunately we have already 
had a bell for a vote that commenced at 10:30, and I am afraid 
that I am going to have to join my colleague in absenting 
myself from the balance of the hearing.
    Mr. Ballenger. We thank you kindly for being here this 
morning, and I am sorry for the tight schedule that you have 
run into.
    Congressman Goss, we will turn it to you now.
    Mr. Goss. Thank you very much, Mr. Chairman. I have a 
lengthy, closely typed, single-spaced multipage statement which 
I would like to submit for the record.
    Mr. Gejdenson. We would love to hear all of it.
    Mr. Goss. I would like to summarize, and I would like to 
have unanimous consent to submit the full statement.
    Mr. Ballenger.  Without objection.

STATEMENT OF THE HON. PORTER GOSS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mr. Goss. Thank you. I will proceed to say that I also want 
to congratulate the Committee for making this effort. Lord 
knows Haiti needs all the help it can get from its friends. I 
think everybody here, as I look around, are people that have 
either traveled there or are very familiar with it and are 
trying to find a solution for a difficult problem.
    I could point out, in terms of my own credibility about 
Haiti, I have been involved with that country one way or 
another with government efforts since the 1960's. I can point 
out that Port-au-Prince is a lot closer to my district than 
Washington, D.C. I can point out that I have a lot of Haitian 
Americans in my district. I have to point out that I have a 
steady stream of visitors, parliamentarians, and businessmen 
from Haiti, and I basically seem to spend a large part of my 
official life dealing with the Haitian problem.
    I also, as the Chairman of the Intelligence Committee, deal 
a lot with facts that go on in the world, troubling facts, that 
affect our national security and our well-being and our 
American interests, and we also try very hard in the 
Intelligence Committee to distinguish between facts and wishful 
thinking. One of my criticisms--and I have been harsh on the 
Administration about this--is that they failed to distinguish 
the facts from the wishful thinking over the past several 
years.
    Let me start by saying where we are in Haiti today. By any 
measure I would say--in fact by all the measures--I would say 
that we are generally backsliding badly. The economy is in 
shambles. There is corruption in the business world, the 
official world and every world. It is very hard to get a 
business loan from a bank in Haiti. It is very hard to get any 
kind of security guarantees at warehouses. Payoffs are a part 
of business. Things just are not going forward in a way that 
would pass muster in this country, and in fact it is getting 
worse.
    Crime is rampant. I have been getting calls from people who 
say that once the sun sets, the HNP in many of the cities just 
simply go indoors and they don't come out, and you are at your 
own risk until the sun comes up again. Unfortunately, we are 
seeing a considerable increase in crime going on throughout the 
country.
    The judiciary is, in fact, non-functional. The parliament 
is shattered, as we know. Power is concentrated in the 
executive branch, with even the local officials in the country 
serving at the presidents' pleasure. When I say 
``presidents','' I use the word in the plural sense. I would 
also point out that there is, among international observers in 
the community now, increasing concern about this backward 
drift, or back slide.
    Election security is going to be a critical issue. From the 
point of view of competency, the HNP probably is not going to 
be able to do the job sufficiently to give people the 
confidence to run, that is, the opposition out there to run, or 
the people to vote, to be concerned about their safety in the 
voting process. We have to overcome those areas, and that means 
a huge effort, because as people have testified already, the 
two Senators have testified and others who know the situation 
there know, getting elections to happen in Haiti is not going 
to be easy, and getting full, fair, free, and transparent 
elections is a huge task.
    I think it is telling that former-President Aristide has 
been silent on the disruptions we have seen so far to the 
initial kickoff sessions of the CEP and the opposition 
politicians who have tried to gather around. There has been 
calculated violence meant to disrupt the democratic process. It 
is associated, or at least alleged, that former-President 
Aristide is responsible, in part, for this. I understand that 
there has been no word forthcoming from him.
    I think the question that is often asked about, gee it is 
going to be such a huge effort in terms of educating the 
Haitians relative to the security question of the atmosphere to 
vote, is a false issue in some ways. The Haitians know how to 
vote. I have been there, as many of us have, for elections to 
observe the Haitians. I was there in 1990, and I was there 
again for the parliamentary elections thereafter; and the 
Haitians go about their business very well. They understand how 
to do it, notwithstanding the high illiteracy rate. The problem 
is that they don't feel motivated to do it now because of the 
corruption, and ``democracy'', has brought them nothing, has 
not brought food to the table. They see the authoritarianism 
continuing, and the destabilization and the elitism that was 
spoken about earlier in the testimony rampant in the country.
    So, I think that the idea of know-how is not the issue. I 
think the idea of atmosphere is rather critical. In the area of 
atmosphere, one cannot overlook all of the very significant 
evidence in recent days that there is increasing politization 
of the HNP. Not only is it a competency question realistically 
asked, but the politization question is one that needs to be 
resolved.
    In a couple of other areas that have been spoken to 
briefly, I would like to talk about immigration, the economic 
immigration, looking to the megapolis of Miami as the way out 
of the troubles in Haiti if you are in economic despair, which 
almost everybody in the country is; we need to have a 
repatriation agreement. It is extraordinary to me that we have 
negotiated two repatriation agreements with Fidel Castro, and 
none with Haiti, which is thought to be a more friendly 
country. It does give us a need to address that issue.
    Speaking of Cuba, I am concerned, and would ask the 
question and try and direct to this Committee's attention, what 
exactly is the Cuban interest in Haiti these days? There seems 
to be a greater manifestation of Cuban presence, allegedly or 
assertedly under the guise of medical help, but from observers' 
testimony that I have talked to and have called me, it is more 
than that. There appear to be what I would call young thugs who 
are militant types out and about doing I don't know what, but 
apparently doing it without any concern for whether the HNP 
cares what their activities are about. It appears to me that is 
an area that needs to be pursued in addition to the question of 
the increasing drug trade which is obvious, well known, 
understood, and is seriously a setback for us on the war on 
drugs, and without again overlooking the problems of the 
immigration flows that Senator Graham is so aware of and spoke 
so articulately about.
    I believe where we are in Haiti now is the need for a 
realistic appraisal, and I stress the word realistic. I believe 
that we need to identify the Haitians in Haiti who are willing 
to be powerful, strong, courageous leaders, and assist them in 
their opportunity in Haiti to lead Haitians.
    I think the problem is that we have been calling it not as 
it is, but as we wish it were in Haiti, and that is a formula 
for deceiving ourselves.
    I basically would associate myself with the ideas that have 
been put forward by Senators DeWine and Graham. The one 
exception would be that I do not believe it is useful for our 
combat troops to be down there doing civilian projects when I 
believe there are other NGO's that can do that. But that is a 
small point. In terms of drawing a line about will the United 
States lend its credibility to these elections, I think we have 
to answer the question is it possible to have full, fair, free, 
friendly transparent elections where there will be good 
opposition opportunities, where the Haitians will willingly go 
forth and vote because there is opportunity for them. I think 
that is going to be the test, and if Haiti fails that test, I 
do not think that we should lend the aura of credibility to 
elections that are not credible.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Goss appears in the 
appendix.]
    Chairman Gilman. [Presiding.] Thank you, Mr. Goss. I hope 
you can stay for some questions.
    Mr. Goss. I would be very happy to stay.
    Chairman Gilman. We are now pleased to have Congressman 
Conyers, representing the State of Michigan, Ranking Minority 
Member on the Judiciary Committee. Welcome, Mr. Conyers. We are 
pleased to have been able to go to Haiti with you on several 
occasions.

 STATEMENT OF THE HON. JOHN CONYERS, JR., A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Conyers. Thank you, Mr. Chairman, and to my good 
friend, the Ranking Member, Mr. Gejdenson Members of the 
Committee, Mr. Payne and Mr. Hastings, and Mr. Delahunt, who 
serves with me on the Judiciary Committee, have been very 
helpful in the one area of foreign affairs that I have spent as 
much time on, this subject, perhaps more than any other. I am 
delighted to be here to share with my colleagues some of the 
impressions of where we are in the very important issue around 
restoring Haiti to some prominence, both economically and 
politically.
    Mr. Chairman, I thank you, because you have been working 
with me on this issue for many years. I have been to Haiti with 
everybody that has been at this table, and many of the Members 
of the Committee. I have followed the subject closely; I travel 
there frequently. Today's hearing provides an excellent 
opportunity for us to openly discuss some of the challenges 
that are still facing Haiti, and what we can do about them.
    I may be the one that knows the first democratically 
elected president as well as, or better than anybody in the 
Congress. I remember President Aristide before he was a 
president. He was here in Washington and I got to know him. He 
traveled with the Cranbook Institute in Michigan. I am deeply 
impressed by him as a human being, a spiritual leader, and a 
person who is trying to bring order to his country under 
incredible circumstances. I think Jean-Bertrand Aristide, the 
man, deserves some examination of his life and his career and 
his designation, based on the principles of the religion out of 
which he came. I think we can easily demonstrate that the 
former-President, Mr. Aristide, has denounced, in a regular 
way, all of the activities, the unfortunate incidents that have 
happened, the public disruptions; and I can remember one of our 
meetings in which we delivered the same kind of message that we 
are delivering to ourselves, we delivered to him. As soon as I 
finished he said what do you want me to do? I said we want you 
to go on the radio and denounce these events. He said, I will 
do it. He said, I am prepared to do it and I want to do it. And 
he did it. He still does it. He has not been silent. He has 
publicly denounced and condemned these activities.
    While we are thinking about that, we ought to examine the 
motive for him to be deliberately fostering the disruptions for 
a country in which he is the lead contender for election, I 
don't think that would make good sense. He would not benefit 
from any of this disruption.
    The other matter that I think we need to get on the table 
right away is his--he and the current President's commitment to 
two elections. That was a very important aspect of our visit. 
Now, the elections were delayed but it wasn't--it was through 
administrative difficulty of printing ID cards for a million 
Haitians that, if you know the terrain, as I know the Chairman 
does, it is impossible. Nobody gets up there, period, except 
the people that live there. So to imagine that we could bring 
in some entrepreneurs who would quickly take a photo of 
everybody for the election, which was a worthy idea, it is just 
simply impossible. So the election was delayed. But the first 
commitment we got from both President Preval and former-
President Aristide was that we get out, we make it clear, we 
get out to the public that there would be two elections and no 
further delay. That has been the commitment and still is.
    Now, a word about the police. Pierre Denize, the head of 
the Haitian National Police, has been one of the most able, 
committed, and open members of the whole government. They have 
abolished their army, something that has never happened before. 
They are moving ahead in a very excellent way. His credibility 
has never, ever been brought under question. Every 
investigation that we have asked him to look more carefully at, 
every issue that we have ever raised to him, I think, has been 
very important.
    The other matter that I think should be brought to your 
attention, Mr. Chairman, and Members of the Committee, is the 
whole question of our expectations. We have to get a management 
under these--our expectations. Haiti was in ruins after largely 
U.S.-supported governments for several administrations--in 
ruin. There was no department of anything. I mean, we are 
talking about creating a nation from the ground up in a few 
years, and of course we are impatient. We want more to happen. 
But we have got to get some management over our own 
expectations. We have to be a bit more realistic about what we 
expect of Haiti at this point.
    The transition to democracy in 1990, and again in 1994, was 
difficult. Thousands of Aristide supporters were murdered. We 
still have problems going on. The President's own sister has 
been injured. These aren't activities promoted by people that 
are supporting the present administration or the past 
administration. Haiti has abolished its military and begun 
building a new professional police force with 5,000 members 
today, with our help.
    I talked with former-Police Chief Kelly and his successors 
down there, and they and we were pleased at the quick training, 
which is not yet completed by far. We have got a lot more to 
do. So, I think it would be inaccurate to suggest that 
President Aristide, or his supporters, or any other political 
group are dominating the police when the few facts that we do 
have make it clear that the sources of violence are so diverse.
    We should avoid any over-simplification that any one group 
of supporters carries a disproportionate responsibility for 
disruption. The strength of a democracy is measured by how well 
it functions under adverse circumstances, and the economic and 
social environment in Haiti places tremendous pressures on the 
political system. Our U.S. Agency for International Development 
just reported that even though we have delivered thousands of 
vaccinations for children, increased access to microcredit for 
entrepreneurs, and improved environmental conditions, only 39 
percent of the population has access to clean water, and only 
26 percent have adequate sanitation. I meet with the 
businessmen regularly too, and am supportive of their efforts. 
They are great and doing a wonderful job.
    I am here to urge that our investigation be tempered with 
caution and patience; that we don't expect too much too quickly 
from a nation that is literally rising from the ashes. It is in 
that spirit that I am very pleased to join you here today and 
ask that my report from my latest visit to Haiti, of September 
10, 1999, be put in the record along with my colleagues that 
were there: Representatives Campbell, Payne, Hilliard, 
Faleomavaega, and Delegate Donna Christian-Green.
    Chairman Gilman. Without objection that will be made part 
of the record.
    [The prepared statement of Mr. Conyers appears in the 
appendix.]
    Chairman Gilman. Thank you, Mr. Conyers, for your 
testimony. Regretfully, Congressman Rangel of New York is 
detained in a Committee markup. He will not be able to be with 
us this morning. Without objection, we will include his 
statement in the record.
    [The prepared statement of Mr. Rangel appears in the 
appendix.]
    Chairman Gilman. Let me address a question or two to our 
panelists. The attack on Haiti's electoral authorities on 
October 24th was unacceptable. What should we do to oppose this 
kind of action at this time? Mr. Goss, Mr. Conyers, or either 
one.
    I am pleased Senator DeWine was able to return.
    Senator DeWine. Mr. Chairman, just very briefly, I think 
that this country, as I said in my prepared statement, must be 
very strong in regard to the elections. I set forth criteria in 
my prepared statement. I think we have to insist on this 
criteria. That is pretty much it. This is an area where I think 
we have to draw the line.
    As far as U.S. assistance--if U.S. assistance is going to 
be in there, we have to have certain things required in regard 
to the election. One of the things that we constantly monitor 
and look at, not just in Haiti, but in many countries, is 
whether or not the police are becoming politicized. That is 
something we just constantly have to worry about. I think we 
have made very, very significant progress with the police in 
Haiti. It is an underreported, untold success story that we all 
should be very proud of; that the Haitians should be very proud 
of. But insisting that the police remain nonpolitical, I think, 
is one of the main keys to ensuring that democracy will 
continue to develop in Haiti.
    Chairman Gilman. Thank you, Senator DeWine. Mr. Goss.
    Mr. Goss. Mr. Chairman, one of the problems that we see 
with that, as disgusting and disruptive as those incidents 
were, and again remember that this is--we make these comments 
with the backdrop of the United States being disinvited to have 
its troops present anymore as a stabilizing factor, or any 
other factor--is the fact that the HNP did not respond. They 
were not responsive to calculated organized violence. There was 
a disruptive effort made. The HNP was notified these events was 
going to take place. Their protection was requested, as would 
be normal in a democracy, and they failed to show up for 
whatever reason.
    I certainly would give the United States of America, and 
its taxpayers and citizens, an A-plus for a good idea in trying 
to strengthen the HNP, but in terms of the measure of 
effectiveness, I would have to call it a failure at this point. 
I think we saw that failure in these demonstrations. I think 
this is the type of thing we will continue to see, and in fact 
it is only a part of a continuum that we are seeing in Haiti 
which is regrettably getting worse rather than better.
    Chairman Gilman. Mr. Conyers.
    Mr. Conyers. Might I just observe that crowd control is one 
of the most difficult areas of police enforcement. We have 
problems right here in our own country in terms of that sort of 
thing, and for a newly trained force to be able to sweep in 
very effectively in the way that we know that police can and 
should operate, may be a bit of a stretch for a police force 
that is still coming out of 6 to 9 months of training, and has 
no long record of being able to deal with this sort of thing.
    But more importantly, the next day, October 25th, Fanmi 
Lavalas issued their press release, strongly condemning and 
denouncing the violence that occurred on Sunday, October 24th, 
during the opening of the civic education campaign. They were 
right there because, why? We go to motivation again. There is 
nothing for them to gain by encouraging lawlessness around 
electoral activity when they have the most to benefit from it.
    Chairman Gilman. Thank you, Mr. Conyers. Just one last 
question. Of course we all recognize that freedom of assembly 
and freedom of speech are essential to free and fair elections. 
Do you recommend anything more we can be doing to assure that 
those kinds of elections in the spring will be held in that 
manner of free and fair election?
    Mr. Conyers. Yes, sir. I would like to recommend that we 
send in not only an international delegation of observers for 
the election, so that we can make sure that the elections are 
conducted as they are supposed to be, and have been promised, 
but that we here in the Congress send a delegation ourselves. 
It is my personal hope, my duties in Congress permitting, to be 
there to make sure that all the promises are fulfilled. I think 
that many of the parties begin to realize that the only way 
that they can gain credibility is to minimize any disruption. 
That disruption operates not just to our anger and disagreement 
and dissolution, but it also operates against their own best 
interests politically. So it is my hope that the observer 
system, which has been worked to a pretty fine point these 
days, will be operating in full swing, so that everybody knows 
that there will be independent observations coming out of any 
election.
    Chairman Gilman. Thank you, Mr. Conyers. Senator DeWine.
    Senator DeWine. Mr. Chairman, the only thing I would add is 
that, not only for these elections, but for the long-term 
development of democracy in Haiti, we should do what I think 
many times we do best, and that is export democracy and work 
through our private sector, through our private political 
parties in this country, to help develop the political system 
in Haiti. This is something that we can do on a people-to-
people basis. I think our government needs to be involved in 
that. That is something that, in the long term, will pay 
dividends for the stability of Haiti.
    Chairman Gilman. Thank you, Senator. Congressman Goss.
    Mr. Goss. Mr. Chairman, I think it is important to take a 
step back and say, who is inviting us to come to Haiti to do 
what. I think we want to be a little careful we don't fall into 
the trap that Mr. Conyers alluded to in his testimony, that 
Haiti was in ruins somehow because of former U.S. Government 
policies. It is a sovereign nation, and it is in charge of its 
own destiny. To the degree we can be useful in the system, to 
the degree that we are accepted and are wanted to come down and 
play in that playing field under those terms, I think it is 
very important to draw those lines first. I know there are 
well-meaning people in Haiti; I know there are hard working 
people in Haiti trying to accomplish those goals. I know that 
those people are interested in having a bona fide international 
observation force there.
    But if that is going to be frustrated by a duplicity, or 
behind-the-scenes disruptions by other powers that are there, 
then it has got to come out yet again, as it has in the past. 
So my concern is, before we commit to anything, we find out 
what the invitation is, what is expected, what the ground rules 
are going to be, who is going to be held accountable, and 
identify the people who are asking us. Because as I pointed out 
earlier, we have been disinvited in some ways from 
participating.
    Chairman Gilman. Thank you very much, Mr. Goss. Any further 
comments by any of our panelists? If not, Mr. Payne.
    Mr. Payne. Thank you very much, Mr. Chairman; and I commend 
you for holding this hearing--very important, I think, that 
those of us who are here are certainly very concerned about 
Haiti. I also look at the problems there, and with the 
disbanding of the military that has probably been an 
institution that has been in Haiti longer than any institution, 
and to attempt to create a police department, I think that we 
are kind of expecting too much too soon.
    Unfortunately, you need to have an effective police 
department. But when I look at the numbers of police in Haiti, 
less than 5,000 maybe--it is about 4,800 police for the entire 
country--trying to recruit new people from scratch, I compare 
the population of Haiti to the population of New York City, 
probably the total miles of that not too far off, when you take 
the five boroughs; New York has 45,000 police. You have 4,800 
in Haiti. We look at it as saying, well now, we ought to 
compare what is happening there with what happens in our major 
cities. You can't even compare.
    As a matter of fact, I take exception. I think the crime 
rate in Haiti is very low. Now, there may be political violence 
which is higher than what we have here, but overall crime--
although people don't go out at night--if you take the number 
of actual crimes compared to the crime in the cities of this 
Nation, in spite of the fact that we have 25 percent of the 
population of Haiti in prison in our jails, I am just looking 
at 4,800 policemen as compared to the 45,000 policemen in New 
York, and we are looking for miracles.
    Second, it is difficult, as Mr. Conyers said, if Aristide 
is so popular and the Lavalas Party is so strong, why would you 
need to disrupt election processes that are going on? The ones, 
it would seem to me, that would want to be disruptive would be 
those who would like to derail the popularity of the majority. 
It would be the ones in the minority that would not want to 
see--the anti-Aristide people, it would seem, would be the ones 
who would have more to gain by disrupting a process which is 
moving forward.
    So I am a little bit confused, too, that when an Aristide 
confidante is killed, that is possibly drug related, but if 
someone opposed to Aristide is killed, it is political, without 
a question, because Aristide's people will kill their 
opponents. But if an Aristide person gets killed, not that the 
opponents might have killed him, it is the fact that it must be 
some other reason.
    So there is no question that there is a lot of prejudging 
or maybe prejudice that goes on on that level with many people 
seeming to have an anti-Haiti position.
    Now, of course, I have 5 minutes to ask the question, but 
since I wasn't here for an opening statement, I thought I would 
roll that in. Let me just ask the panelists, I believe that--
and we all agree that the election should be separate. I think 
Mr. Conyers indicated that everyone agrees that that is the way 
it should be. I just wonder and maybe those of you, Mr. Goss, 
and Senator DeWine, the process by which the elections were 
supposed to be held in December, with polling places having to 
be gotten, with candidates having to be certified, with 
election workers having to be trained--and I think the number 
is closer to 3 million photo ID's that were going to have to be 
taken in order to have the December election--I was just 
wondering if anyone feels that that election could have been--
the election has been postponed--but does anyone believe that 
could have been pulled off?
    I heard our U.S. Embassy say it could have been pulled off. 
I totally disagreed with that when I was there in September or 
October, because I couldn't see that all that would be done by 
December. I wonder if anybody there might have any views on the 
election, and whether that December 8th date was realistic, 
especially in light of the new photo ID business that was 
brought in--whether it would have been possible to have it take 
place. I wonder if Mr. Goss or the Senator, or Mr. Conyers 
could respond.
    Mr. Conyers. I just wanted to quickly observe that it was a 
noble and appropriate attempt for the December elections, that 
is, when it was scheduled. But on a CODEL--two CODEL's--that we 
were in, it became clear that there might be difficulty, and it 
would require a postponement. Now we have cleared the crisis of 
the absence of a prime minister, we are seeing progress. One of 
my CODEL's unanimously recommended postponing the elections to 
make sure that there was adequate time to have excellent 
preparation. Now, we are making sure that these preparations, 
including the measures intended to increase voter confidence 
and reduce fraud, are implemented. I think our country must 
show a strong commitment for these elections, and let me just 
say that our Ambassador is doing an excellent job. I would like 
to just put in a word for Ambassador Carney, who was able, 
while we were there, to bring OPL and Fanmi Lavalas together, 
and even the dissidents, for the first time. So, the U.S. was 
doing a great job in moving us out of this necessity to 
postpone the election.
    Senator DeWine. Congressman, I don't have the expertise to 
tell you whether, if carried out, that election would work from 
a technical point of view. I think at this point that is water 
over the dam for all of us, and certainly for Haiti. I think 
the important thing is that we push forward, and they push 
forward, and they have the will to have these elections. I 
think everybody I have heard today agrees with that.
    Mr. Goss. My view is that, technically, it could have 
happened, and I base that on the previous two elections that I 
was down there for. But I don't think there is a will to have 
an election in Haiti, among the people, that is sufficient. 
There is lack of confidence about their safety. There is lack 
of confidence among the people who would run that their safety 
can be guaranteed to survive the election. There is some 
feeling by the voters that voting doesn't get you anything. I 
have talked to voters who say, why do we vote? We don't 
understand this democracy; it doesn't put food on the table. I 
think the status that--Mr. Payne--that you alluded to about 
people killing each other is part of what is off-putting the 
will. I think that there is motive for Aristide's forces 
wanting to disrupt the process. I think the motive of that is 
to delay the elections into one election later in the year. 
Aristide is already the de facto power in Haiti, as everybody 
knows. The question then of wrapping it up with the formality 
of an ``election in one election'' sometime next fall, when the 
presidential elections are called for, and the parliamentary 
elections, where a puppet parliament would be brought along 
with them, I think, is a scenario that is much discussed by 
people who know about Haiti.
    Mr. Payne. My time has expired. First, I don't see what 
difference you are going to have in having two elections in 
one, Mr. Goss, if Aristide is the only name in town and whether 
it is eight elections, they are going to win all eight. So, to 
have them in one, I really don't think it is a prime mover. As 
a matter of fact, I would think that Aristide would want them 
separate, so people wouldn't think that he wanted to have them 
all at one time. But there is no question that I would be 
shocked if Aristide's party does not overwhelmingly win.
    Second, I do want to disagree with you. The difference, Mr. 
Goss, between the election this time, in December, when we were 
there almost in October, and what happened when we were both 
there 4 or 5 years ago in the previous election, is that they 
weren't talking about taking 4 million pictures and having them 
put in nice little frames and have everybody there when they 
went to vote. The other election was just a fingerprint. Now 
you have to have your photo ID and the fingerprint too. That 
was the big difference. That is what Mr. Conyers alluded to. 
They didn't have the photo ID. I don't even know who came up 
with this great idea to go to Canada to get people to take 
pictures of 4 million people so they can vote. We don't even 
have photo ID mandatory in New Jersey for drivers licenses, as 
a matter of fact. But someone says, in our Embassy, we can do 
these 3 or 4 million pictures and have everybody ready in a 
month. It absolutely, in my opinion, would have been even 
difficult in New Jersey. We have 8 million people, too.
    Mr. Goss. If you want a response to that, Mr. Payne, I will 
tell you we use motor voter in Florida, and we have concerns 
there as well. The point, I would say, is I was there in 1990, 
and I have said publicly many times that I thought that 
election was an absolutely bona fide expression of the will of 
the people of Haiti. It was a very well done election. Now, it 
wasn't perfect in technical terms by the way everybody 
registered and so forth, but it was a clear expression for 
President Aristide's victory. I have said so. That was a 
democratic election. I think that was really the last truly 
democratic election in Haiti, and it may have been the first 
one. They did it without photos.
    Chairman Gilman. The gentleman's time has expired. Mr. 
Ballenger.
    Mr. Ballenger. Thank you, Mr. Chairman. I have a couple of 
questions. The first one is, Senator Graham was the only one of 
you that spoke out about the need for some economic stability 
to grow a real democracy there. I am specifically talking about 
CBI, which is either hung up between the House and the Senate, 
or somewhere, but it just appears to me that without some sort 
of economic stability, or the ability for the country to create 
jobs, the whole thing is going to fall apart, as a personal 
opinion.
    I would like to ask that, but I would also like to throw 
out something that a group of Haitians gave me last week, just 
this suggestion. They said that the major difficulty that they 
felt the police had was that they were scared to take sides. As 
somebody said--I think one of our Members here said--that their 
numbers are so small that they are afraid to get involved, 
because they might end up being brutalized themselves.
    The suggestion was--and I didn't even realize this 
existed--that there are substantial numbers of Haitian American 
police in this country today, in New York City and Chicago, in 
various and sundry areas like that, that they thought would be 
able to volunteer to go down--maybe there would be 300, 500, 
whatever it is, to go down--and the addition of trained 
policemen who have lived in a democracy would put backbone into 
the Haitian police. First, I would like to ask the question 
about CBI, and the second one, is that second suggestion even 
practical?
    Senator DeWine. Let me start if I could, Congressman 
Ballenger, with your second point. One of the success stories 
that I have seen in Haiti is the U.N. CIVPOL that contains a 
number of Haitian-born U.S. citizens, big city cops, who are 
working down there on a contract basis, who care about Haiti, 
who have a background from Haiti, many times have relatives in 
Haiti. They are down there with a very specific purpose and 
role of training of Haitian police, and really training the 
trainers. They are actually mentors. That has been, I think, 
very successful.
    I think it is important for us to try to do what we can to 
see that that program continues. I am concerned that it may not 
be continuing. So it goes right along with your points. We have 
resources in this country--in most of our major cities we have 
Haitians who are policemen who are very good and very talented, 
and many of whom have been willing to go down to Haiti on a 
limited basis. I think we need to keep that going.
    The second point you made on the economy of Haiti, a lot of 
things have to happen before we get the investment that we need 
to see in Haiti. The assembly industry that we used to see in 
Haiti in the time period when baseballs were assembled there--
all kinds of products came out of the assemblies--is back up, 
but it is certainly not near what it was before the embargo. 
That is something that is--the plants are still there, the 
buildings are still there, the Haitians are still there--but I 
think that the instability in the country is keeping some 
companies from making a decision that they want to go back and 
relocate back into Haiti.
    The fact that the port is the most expensive port in the 
hemisphere is a real problem. You have experienced that 
yourself, and I have, when we try to get humanitarian shipments 
through that port. I had a situation just a week ago, we were 
working to get some humanitarian things through the port and it 
just boggles the mind the red tape you have to go through, and 
all the problems you have to get it through the port.
    Privatization needs to continue. There are eight or nine 
government-owned industries that, frankly, need to be 
privatized. They have made some progress on that--flour, 
cement--but they need to go further. There are just so many 
things to talk about when you talk about the economy. But 
clearly what we have to have, what Haiti has to see, is 
investment. Foreign money has to come in there to invest in 
Haiti.
    The other thing that I mentioned in my prepared statement 
was agriculture. One of the biggest problems Haiti has today is 
how many people are leaving the countryside and going to one of 
the major cities. It is not just Port-au-Prince; it is several 
other major cities. They are coming in there, they have no way 
of making a living, they have no way of eating. So we have to, 
I think, encourage them; and we have the technical expertise at 
USAID and through the American universities, we have that 
expertise to help them not only develop their own agriculture, 
but many times the most important thing is to market their own 
agriculture so they don't have to go through the families that 
have control and the choke-points that have been there in 
Haiti, so they have their own cooperatives, principles we see 
in the United States in agriculture, and developed in the 
beginning of this century.
    So there are a lot of things that can be done. But part of 
the problem is the feeling by people that there is that 
political unrest, the stability is not yet there in Haiti. I 
think having elections and getting a government that really 
does function will go a long way to restoring people's 
confidence.
    Mr. Ballenger. Before I pass that onto Mr. Goss, let me 
just say one thing. If you are a businessman and you are 
thinking of investing somewhere, would you put your money in 
any place that automatically says you are going to be less 
competitive than the Mexicans? That is the reason I throw the 
CBI out there.
    Senator DeWine. I totally agree with you, Congressman. We 
need to do it. We need to pass it, we need to get it done.
    Mr. Ballenger. Porter.
    Mr. Goss. Thank you. I certainly agree with Senator DeWine 
on the CBI issue. We have been working on it for a long time, 
and it matters a great deal in my part of the world. But the 
issue you raise about the economy is clearly true. We have to 
have the economy. But it is very hard to get anybody to invest 
because of the unusually high risk involved, the great amount 
of corruption, and the lack of guarantees.
    In fact, I was told by one American businessman--and this 
is a little bit anecdotal, but it nevertheless is the 
atmosphere--they would like to have reopened the business that 
they had previously in Haiti, before the embargo went on, and 
they could not get a bank loan from the bank because the bank 
said that the bank examiner would not allow an unsecured loan 
in Haiti because it is too risky. That is the kind of problem 
that small American businessmen are having there. It obviously 
is a huge damper on investment.
    I agree with you on the economy. The problem with all of 
this--and going to your second idea--I think it is a great 
idea. But it is only a great idea if Haitians in Haiti want to 
have that happen, want to invite those people in to provide the 
stability. Because, for every time one group in Haiti gets a 
good idea, another group decides to derail it. The problem 
remains among Haitians in Haiti. We haven't learned the concept 
of opposition. We haven't learned the concept of middle class.
    We have got a huge group of non-elite and a small group of 
elite, and the power shifts back and forth in different areas; 
but the fact of the matter is the great mass of the country at 
this point is in economic depravity that probably doesn't exist 
anywhere else in this hemisphere, if in the world, it is so 
bad. It is an absolute outrage this can be, when there is so 
much opportunity. But unless the Haitians who have the capacity 
to lead in Haiti are willing to lead, and these decisions are 
made in Haiti, all the good will, good intentions, and good aid 
we can throw at them will come to naught. That is what we have 
seen, regrettably, in the past couple hundred years.
    Chairman Gilman. The gentleman's time has expired. Mr. 
Delahunt.
    Mr. Delahunt. Thank you, Mr. Chairman. I have enjoyed the 
testimony from everybody this morning. It has been very 
informative. I hope Senator DeWine comes back because I think 
many of the points he makes are really on the mark. I do agree 
that, for many reasons, it is important for the United States 
to insist on two elections. I think if that occurs, it will 
hopefully alleviate some of the concerns expressed by Mr. Goss 
and those who share his perspective. I would also observe the 
comments by Mr. Conyers in terms of his conversations with the 
former President making a commitment to that particular 
premise, that particular reality. Now we shall see. Now we 
shall see, Mr. Goss.
    Earlier you mentioned the incidents, and you've reached a 
conclusion that they were at least instigated, if not 
encouraged, by members of the Fanmi Lavalas. Again, Mr. Conyers 
submits to us a press statement to indicate that, in fact, the 
Fanmi Lavalas condemned publicly this conduct of the actions of 
those who claim to be followers of President Aristide. I 
certainly don't know what happened. I wasn't there. I have some 
reservations about the reliability of the information that we 
receive from Haiti.
    But I would also point out, I think it was just this week, 
that there was another incident where militants who claimed to 
be Aristide supporters attacked a speaker at a political rally 
from members of the ESPASE Coalition. We had some good news. 
The Haitian National Police actually intervened and effected an 
arrest of one of the militants. I would be interested if we 
could develop some intelligence as to the whereabouts of that 
particular so-called militant, and what his perspective and 
motives may be. I find it, maybe because of my naivete, just 
simply hard to accept the fact that all those claiming to be 
followers of Aristide are foolish enough to be proclaiming it. 
As my friend from New Jersey, Mr. Payne, indicated, it really 
doesn't make a lot of sense; but then again you know Haiti. It 
is tough to read the tea leaves, isn't it, Mr. Goss?
    Mr. Goss. It is very tough.
    Mr. Delahunt. I just wanted to point that out. But you were 
there in 1990. I think it is really important that we speak to 
this issue in terms of the context of where we were in Haiti. I 
mean Senator DeWine made some very good points about the good 
news and the bad news. I think, realistically, he is pretty 
much on the mark. But the violence that occurred during the 
coup years, from 1991 to 1994, clearly exceeded anything that 
we see today in Haiti in terms of systematic political 
violence. Would you agree with me, Mr. Goss?
    Mr. Goss. I would say that, measure for measure, the 
capacity for brutality hasn't changed, the number of incidents 
have changed. The trend line is to more incidents rather than 
less at a time when it should be the other way around. But in 
measuring the absent quantity, there is no question that there 
were more knocks on the door at night and people disappearing 
under the tension of the Cedras--it was the military 
government, and the Aristide government at that particular 
moment.
    Mr. Delahunt. It is my understanding that during the coup 
years there was in excess of 4,000 political assassinations 
that occurred. I mean, in terms of magnitude and scale, that 
is--that does not exist today.
    Mr. Goss. There is no question that there was a spike 
period at that time, as there had been other spike periods in 
the history of Haiti. What I think we are all concerned about 
is that we are heading toward more authoritarianism and another 
spike period where the stabilizing factors that we started out, 
with good intent, will be captured by an authoritarian arm, and 
we will have the new Tonton Macoute. I think that, as the 
people who watch the cycle in Haiti say, here we go again.
    Mr. Delahunt. It certainly isn't to that degree of 
magnitude, and I agree we should be vigilant on that. I think 
the point you make, in terms of vigilance, is a very valid one. 
We agree on that.
    But at the time--as you said you were in Haiti back in the 
1980's and this goes to the credibility of the information we 
all receive from Haiti--did we have intelligence at that point 
in time that there was going to be a coup overthrowing the 
former President?
    Mr. Goss. I simply am not aware of any, but I would not 
have been at that particular station of my life.
    Mr. Delahunt. Just given your own familiarity with the 
situation, how could our intelligence community have blown that 
one back in 1990 and 1991?
    Mr. Goss. I am not sure that there was any mistake by the 
intelligence community. What I am not sure of is whether the 
policy people in the executive branch did anything with the 
information that was available. I just have no knowledge of 
exactly what was available or how the policy people treated it. 
We often, in my experience in the intelligence community, and 
this goes back a lot of years, provide information that says 
there is an 80 percent, or whatever percent chance that there 
is going to be a coup by such and such a time. Now that is----
    Mr. Delahunt. So we really don't know what happened back in 
1991, as far as the intelligence community or as far as what 
the then--Administration, the then--Bush Administration did to 
in any way deal with the information.
    Mr. Goss. I personally do not know. I am happy to try and 
get the information.
    Mr. Delahunt. I think it is important. Because I think a 
lot of what occurred back there we have to remember--I know you 
will agree with this--it was during the coup years that this 
economy, which was fragile to begin with, really went into the 
hopper. It went down 30 percent in terms of the GDP. So we are 
starting in 1995, 1996, with total devastation. I mean, those 
generals that were running the show back then, from 1991 to 
1994, created a situation where there was a negative decline in 
GDP by 30 percent.
    Senator DeWine talks about the economy that has stagnated, 
and for all intents and purposes it has. The World Bank shows 
that it has grown by 2, 3, or 4 percent; but I would suggest 
those numbers are significant. But really what has happened is 
that we have had a real problem based upon what happened in the 
early part of this decade in terms of moving Haiti forward. I 
yield back.
    Chairman Gilman. The gentleman's time has expired. Mr. 
Hastings.
    Mr. Hastings. Mr. Chairman, thank you very much. Mr. 
Chairman, as you well know, on this Committee I have tried to 
offer creative suggestions. As I sit here and I listen to our 
colleagues, who have made brilliant presentations, and I hear 
all of us, I think as I look in this audience and I know 
several of the members in the audience, there are about 20 
people in the audience that know a hell of a lot more about 
Haiti than any of us do. I know in the future, one thing that 
we might be able to do, while we can't open up our hearings to 
the public, so to speak, we might invite them to submit one-
page statements or something, which any of us that were 
interested could look at.
    That said, I regret very much that Senator DeWine had to 
leave. I understand his leaving, but he made several 
provocative statements in my view, one being that Haiti is not 
a strategic interest of the United States, now, or in the 
future. I would urge him to understand that it was at one point 
in the past, and evidently, with the significant number of 
Haitian nationals living in the United States, it is likely to 
be again in the future. But I will quarrel with him 
ideologically when he and I have an opportunity to get 
together.
    Let me ask you, Mr. Delahunt, Mr. Chairman, and Mr. Conyers 
or Mr. Goss, tell me what is magical about two elections? I 
don't understand that. While I have agreed and I have supported 
the two elections, I don't know the magic in it. If there--and 
especially in light of your statement, Mr. Goss, that Haiti, 
being a sovereign nation, is in control of their own destiny. 
If they want to have one election, what is the problem?
    Mr. Goss. In my view, Haiti should be in control of its own 
destiny. What we are talking about here is what is the interest 
for the U.S. taxpayer and the United States of America in this 
Haiti. I think we naturally put out our hand in a gesture to a 
friendly, neighborly country, trying to be of assistance, in 
good will, without interfering in their sovereign decisions. 
They can take their own actions, and they accept the 
consequences of their actions.
    Mr. Hastings. What is our leverage to accomplish that, 
aside from just saying something?
    Mr. Goss. To accomplish what?
    Mr. Hastings. To accomplish two elections, for example, 
since that is what all of us seem to agree that they should 
have. Do we have any leverage to cause that to happen?
    Mr. Goss. Yes. We have expertise, financial support, and 
good will. I think we can do it in a way that would assure them 
that we are not interested in interfering with their 
sovereignty; we are only interested if they are interested in 
proceeding on the path of democracy and helping them go down 
that path. That is our leverage. They know that we are here. If 
they want it, it is available. If they don't want it, we 
shouldn't jam it down their throats.
    Mr. Conyers. Mr. Hastings, the very famous Delatore 
brothers, Lionel Delatore and his brother Leslie Delatore, who 
regularly visit us--probably well known here on the Hill, 
hardly a few months go by with business delegations--they have 
urged upon me that we support the notion of two elections. It 
was for that reason that I urged it upon President Preval and 
former-President Aristide, and they all agreed. So in a way, 
there seems to be a unanimity that there can be no political 
name calling or attributing motives insincere if they were 
collapsed into one. But I think, and I hope and pray, that we 
are past that.
    Mr. Hastings. I, for one, just don't see any particular 
magic in it or, particularly as it pertains to the fact that 
they have had elections that were--even if you take Mr. Goss' 
statement, at least one that was for all intents and purposes 
fair and transparent, I see no reason why they could not hold 
another at either March or December or whenever there may be an 
election.
    I want to move or respond, since there is a record, to 
Senator DeWine's other view about how foreign investment has to 
go into Haiti. One thing that needed to go into Haiti 
immediately following the military operation that was 
successful there in 1994, was the promises of donor countries 
who indicated that they were going to do things, the United 
States included, that they did not do.
    Now we come to an election, and the one organization that 
has conducted itself admirably, MICIVIH, is one of the few that 
is now without funds to carry on under the banner of the United 
Nations. I would be curious to understand how we bring it to 
that. But regarding foreign investment and privatization, one 
of the reasons private investors go into the areas is because 
of cheap labor and industrious people. If there is any cheaper 
labor anywhere in the hemisphere and any more industrious 
people than Haitian people, then I would like to see them step 
forward. If it is because of the unstable government, then I am 
curious why we take oil out of Nigeria, Iraq, Kazakhstan, do 
business in Indonesia and Russia, if instability is the 
barometer. So I am not so sure, again, I will quarrel with 
Senator DeWine when I have an opportunity to get with him.
    But let me ask you, Mr. Goss, what will we do if, according 
to our views there should be two elections, and if there are 
not two elections, what then should America do about Haiti, 
since Haiti ain't going to go away?
    Mr. Goss. The question of our foreign policy to Haiti or to 
any other country is obviously for the administrative branch to 
deal with. My view is that we should continuously try and 
recognize the fact that we have a very good Haitian-American 
association. We have the opportunity for business, and we 
should continuously try and encourage that and make that known. 
But we are not going to be able to overcome the tragic flaw 
that exists in Haiti, which is that a bunch of leaders down 
there, for the past couple hundred of years, have been looking 
out more for themselves than they are for the people. You can't 
have a democracy under those ground rules. I hope we can 
identify those leaders and bring them along and say look, it is 
to everybody's advantage to go toward democracy rather than to 
keep going back to this authoritarian idea where you take 
revenge on the guy who was trying to take a piece out of your 
hide last week. We do it pretty well in this country. Sometimes 
people say we squabble too much up here, but I think that is 
the lesson we have to share.
    Mr. Hastings. John.
    Mr. Conyers. I am optimistic. When you say 200 years, that 
was 200 years without a democratic system. That was the 
problem. The problem was resolved successfully, thanks to U.S. 
help, by the election of the first democratic President in 200 
years there, with Jean-Bertrand Aristide. What we are trying to 
do now is continue that, and I think that it can be done. I 
think that we have a two-election agreement. The economics and 
the--you referred to some very important parts of it. We have 
got 3 percent economic growth. From a country that came from 
the ashes, 3 percent is maybe not much in a Western situation, 
but there it is great.
    We have got new agricultural projects with bananas. We now 
have from zero factory employment to 40,000 factory workers. 
The USAID program for microenterprize loans is being undertaken 
by a major Haitian bank. They are checking out cruise lines. 
They are getting ready to put $12 million into a cruise line. 
These don't demand headlines, but this is the way that you 
slowly build up, and I see it happening. I don't think this is 
sheer optimism, both in their politics and their economy.
    Mr. Hastings. Thank you, Mr. Chairman.
    Chairman Gilman. Mr. Ackerman.
    Mr. Ackerman. I would like to yield to Mr. Delahunt.
    Mr. Delahunt. I just have one question. I would ask both 
Mr. Conyers and Mr. Goss their position in terms of the 
Administration's refusal to release the so-called FRAPH 
documents. Do you have an opinion on that, Mr. Goss?
    Mr. Goss. I will let the Administration speak for itself.
    Mr. Delahunt. You don't have an opinion on that.
    Mr. Goss. I have an opinion about a lot of things about 
this Administration. I share them publicly. But I think that 
the problem I have with the Administration is they have not 
been realistic, and they have tried to steer a picture of Haiti 
which is not an accurate picture of Haiti as it is today.
    Mr. Delahunt. But you don't have a position on whether we 
have an obligation to release to the Haitian government, 
allegedly--and you use that word ``allegedly''--160,000 pages 
of documents and video tapes, some allegedly involving torture, 
et cetera, during the coup years?
    Mr. Goss. I would suggest, on that subject, that we have an 
Administration that handles those matters on a case-by-case 
basis. We have several such countries around the world where 
there are requests for documents. I think the handling of those 
documents carefully and fairly should be left to the 
Administration. If there is a problem in our oversight of that, 
then I think we should jump in. But right now, I am not aware 
of a problem.
    Mr. Conyers. Mr. Delahunt, this has been a very sensitive 
point. Our U.S. military confiscated documents when we entered 
into Haiti that now have been redacted so much it is hard for 
me to figure out what utility they may have. But for us to say 
we are not going to turn them over to the democratic government 
because we are sensitive that it may involve some of our 
intelligence operations with the Cedras Junta is really a 
rather bald violation of the respect that nations should have 
for one another. It is in the past, but I think that if they 
were revealed it would make everyone feel a lot better; and if 
it embarrasses the U.S. a little bit, I don't see where that is 
going to turn our status in the world into something different.
    If we keep saying we are trying to recognize them as a 
nation like us in the Western Hemisphere, we really should turn 
those over. It has now become a sore point that is not going to 
go away. So I know their demonstrations, their requests, their 
petitions; and yet we still have a kind of stonewalling that 
makes other people tend to argue that we create world 
agreements that are for everybody else but not for us, when 
they are inconvenient or potentially embarrassing.
    Chairman Gilman. Would the gentleman yield on that? My 
staff informs me that the bulk of these documents are available 
to the Haitian government at the present time. I thank the 
gentleman for yielding. Mr. Ackerman.
    Mr. Ackerman. I thank the panel. I look forward to hearing 
the next panel. I yield back.
    Chairman Gilman. I want to thank our panelists and their 
indulgence in our time factor. We thank you for your testimony.
    Mr. Conyers. Thank you for holding these hearings.
    Chairman Gilman. We now proceed to our final panelist, 
Ambassador Peter Romero, the Acting Assistant Secretary for 
Western Hemisphere Affairs. We welcome Ambassador Romero. 
Ambassador Romero, you may put your full statement in the 
record and summarize. Without objection, your full statement 
will be accepted in the record.

    STATEMENT OF AMBASSADOR PETER ROMERO, ACTING ASSISTANT 
 SECRETARY FOR WESTERN HEMISPHERE AFFAIRS, DEPARTMENT OF STATE

    Mr. Romero. Thank you, Mr. Chairman. I had a statement the 
size of a small town telephone book, but I think I will forego 
that, with your indulgence please, and just make a few 
comments, if I might.
    Chairman Gilman. The full statement will be made a part of 
the record. Please summarize.
    Mr. Romero. September marked the 5th-year anniversary of 
U.N.-sanctioned military intervention that restored elected 
government to Haiti. Had we and the international community 
failed to act, Haiti's nightmarish repression would have 
continued, along with flotillas of fleeing refugees. While 
deep-seated problems remain, and progress is less than we had 
hoped or Haitians had reason to expect, the reality is that 
Haiti has experienced the longest period of democratic 
government in its history.
    Human rights problems continue to be a serious concern. The 
kind of political violence of the de facto military regime or 
the Duvalier era has ended. The roughly 380 extra judicial and 
suspicious killings in the first 8 months of 1994 stand in 
stark contrast to 38 reported police killings in 1998. However, 
no police killings are acceptable; they are diminished 
substantially. Haitians today enjoy an unprecedented level of 
freedom of expression and press, and a range of political 
parties and civil society groups operate openly.
    The United States' goals in Haiti remain unchanged: To help 
Haitians reverse the conditions that for nearly two centuries 
have mired the Haitian people in poverty and impeded the 
development of democracy. To succeed, our policy needs 
bipartisan support. Only with such a consensus can we work 
effectively with the Haitian authorities and people to meet the 
manifold and intractable challenges to reaching our common 
goals. We seek to modernize the Haitian state in all its 
aspects, construct a nation rooted in the rule of law, and 
create a foundation for sustained economic growth.
    At the request of Haitian authorities, we and our 
international partners have diligently worked together and 
bilaterally to help build a professional and apolitical Haitian 
National Police.
    Some of our efforts in this regard were inhibited this year 
by the effective closure, due to lack of funds, of the OAS 
component of the UN/OAS International Civilian Mission in 
Haiti, or MICIVIH, that has successfully served as the eyes and 
ears of the international community in both monitoring and 
reporting on police abuse and other human rights violations. We 
are currently working with the U.N. and other bilateral donors 
to ensure the continuation of U.N. police and human rights 
assistance after the November 30th termination of the current 
mandate for the U.N. International Civilian Police Mission in 
Haiti, MIPONUH, and the December 31st termination of the 
MICIVIH mandate.
    Continued international engagement is essential to help 
train and mentor new police recruits, address continued 
management problems among the middle ranks of the HNP, and 
promote the strengthening of Haitian institutions in civil 
society to ensure improved respect for human rights.
    The HNP faces a number of challenges, including a distinct 
rise in attrition among the ranks, and an apparent increase in 
incidents of human rights abuse and corruption. We are very 
concerned about physical attacks in the past month on senior 
police leadership that have weakened police moral and pose a 
serious threat to police neutrality. We continue to press for a 
full investigation of the attacks, and have made clear to 
Haiti's leaders that U.S. law enforcement assistance requires 
their continued deep commitment to an apolitical security 
force.
    The U.S. and international community are assisting Haiti in 
preparing for elections scheduled for March 19, 2000, to 
restore fully the parliament and independent local governments 
that lapsed on January 11th of this year. Despite some 
organizational difficulties, the Provisional Electoral Council 
(CEP) continues to operate in a credible manner, and remains 
acceptable to a wide range of political parties. We are very 
concerned about the October 24th violent disruption by self-
professed supporters of former-President Aristide at a CEP 
rally inaugurating the voter education campaign. This directed 
attack was against grass-roots political organizations, 
something very vital to the process.
    The government of Haiti cannot let actions by a band of 
thugs deter Haitians from advancing civil society and voter 
education. In addition to possible steps in a bilateral 
context, we are urging the political parties participating in 
elections to sign and abide by a nonviolence pact presently 
being developed by the CEP. We are also urging the CEP and HNP 
to improve coordination and communication to prevent a replay 
of the October 24th incident.
    Finally, Mr. Chairman, Haiti remains by far the poorest 
country in this hemisphere, and with one of the most violent 
and politically repressive histories. Without U.S. and 
international assistance in 1994, Haiti would have remained 
under brutal dictatorship. Without continued international 
help, there is a real danger Haiti will slip backward. We 
cannot retreat from our responsibility to advance prospects for 
democracy in Haiti. We must remain engaged in helping Haitians 
achieve their goals of strengthening democratic institutions 
and sustainable economic growth.
    Mr. Chairman, Members of the Committee, I hope that we can 
continue to rely on the bipartisan support from Congress that 
we continue to enjoy in this effort. Thank you very much.
    [The prepared statement of Mr. Romero appears in the 
appendix.]
    Chairman Gilman. Thank you, Secretary Romero. I will try to 
be brief. Ambassador Carney's good strong statement on the 
police suggests that someone, or some group, is seeking to 
politicize and seize control of the leadership of the HNP 
against the interests of the United States. Who exactly is 
involved with this? How should we propose to counter their 
efforts?
    Mr. Romero. Mr. Chairman, we have heard that through the 
years that various people would like to politicize the police 
to get them to indulge in one particular political view or 
another. We have just recently heard that the government is 
considering establishing an informal group to advise the 
President on the police. We just heard that a couple of days 
ago.
    Chairman Gilman. Secretary Romero, we were informed that 
President Preval told a recent visiting Canadian delegation 
that the elections will not be held in March. What is your 
assessment?
    Mr. Romero. Through the last several months, President 
Preval has not been certain that elections can be held on time. 
Of course, they have slipped from December to March 19th now, 
with the second round scheduled for the end of April. But let 
me just say there were some issues related to why have two 
elections; and Congressman Conyers and Congressman Hastings and 
Congressman Payne talked about that. I think it is absolutely 
vital, in the Haiti context, that small, grass-roots political 
parties can organize themselves around an event, field 
candidates, have the security of knowing that they can engage 
in political activity without reprisals--the single most 
important catalyst for democratic development. Certainly the 
small parties are no match for the Fanmi Lavalas, the largest 
most established party, but they need to have the experience of 
being able to contest elections at the grass-roots level. I 
think the two elections are absolutely critical to Haiti's 
democratic development.
    Chairman Gilman. Secretary Romero, the Committee received 
an affidavit from a member of the Haitian National Police 
stating that witnesses to the killing of Mr. Jean Eddy Lamy saw 
a police car with a license plate 302 on it at the scene of the 
crime. According to that affidavit, fingerprints recovered from 
the police car belonged to a mechanic who was hired by the 
police on a recommendation of Danny Toussaint. Have you 
received that kind of information?
    Mr. Romero. Mr. Chairman, this is the first we are hearing 
of this, but I would be happy to look into it.
    Chairman Gilman. I wish you would, and we will be pleased 
to supply the affidavit to you.
    The last question. At our December 1997 Haiti hearing, Mr. 
Hamilton, our Ranking Democratic Member at the time, asked 
Ambassador David Greenlee for his frank appraisal of Mr. 
Aristide, and I recall Ambassador Greenlee was reluctant to 
answer his questions, permit me now to pose to you this 
question with the same request for your frank assessment: From 
an American national-interest standpoint, is Mr. Aristide, at 
this point, being helpful or unhelpful?
    Mr. Romero. Thank you, Mr. Chairman, for saving that 
question for me. I think that----
    Chairman Gilman. You are welcome.
    Mr. Romero. I think that we Americans are people who are 
concerned more with deeds than words, and I think that Mr. 
Aristide--ex-President Aristide, has an opportunity to 
demonstrate his democratic vocation, and that is through his 
signature as the leader of the Party Fanmi Lavalas on a 
document that the CEP is drafting up right now, that is, 
essentially the rules of the game, the decorum, a nonviolence 
pact, if you will, among and between political parties in terms 
of these elections. Ex-President Aristide has an opportunity to 
sign that. I think that one of the major issues related to 
these elections is the security surrounding them, particularly 
for candidates, and if he signs them, that will, I think, go a 
long way in convincing us that he would be a democratic 
president.
    Chairman Gilman. Secretary Romero, what is the most 
important thing that we should be doing to help in the 
forthcoming elections?
    Mr. Romero. Mr. Chairman, I think we need to keep the 
course, or stay the course. I think that the progress is being 
made with CEP preparations, and in a positive, fluid way. 
Certainly, members of the CEP have had experience on previous 
electoral tribunals. They remain widely acceptable to all the 
political parties and non-governmental organizations and civil 
society. They have begun to branch out regional and municipal 
offices in terms of preparations--certainly the electoral card 
is one of those manifestations of their organization--and we 
believe strongly that they can get it done with good leadership 
and the experience that they have on that panel.
    Chairman Gilman. Just one last question, Mr. Secretary. The 
attack on the head of the Judiciary Police, Mario Andersol, 
reported in the Haitian press was very disquieting. In 
addition, Police Director General, Pierre Denize, reportedly 
was forced to leave Jean Lamy's funeral. Are key members of the 
police still being harassed and intimidated, and if so, what is 
the source and purpose of that kind of harassment and 
intimidation?
    Mr. Romero. Mr. Chairman, I went down to Haiti back in May 
specifically for the purpose of trying to talk to people about 
harassment and intimidation of the police. I have to tell you 
that I was not able, I was not successful. But neither has the 
virtual parade of Administration folks and Members of both 
houses of Congress on that same issue. It is hard to figure out 
where this stuff is coming from. Haiti is not easy when it 
comes to getting to the bottom of things.
    But there were a couple of statements made by Congressmen 
Conyers and Payne earlier regarding what motive the Lavalas 
Party would have to try to disrupt the elections since ex-
President Aristide basically is the strongest person, at least, 
going into the elections later in the year 2000. I guess my 
answer to that would be, in the hypothetical, that ex-President 
Aristide leads the strongest party in Haiti. That party 
basically enjoys, or has contested elections with a turnout of 
about 5 to 10 percent.
    If we are talking about the types of grass-roots efforts 
that happened back in May with the Chamber of Commerce, which 
tried to occur at the end of October, in terms of getting out 
the vote and voter education and that sort of thing, then there 
would be a whole lot more voters out casting their ballots when 
it came to March 19th or the second round at the end of April. 
Perhaps there are those in the party that don't want that kind 
of uncertainty of a bigger voter turnout.
    Chairman Gilman. Thank you, Secretary Romero. Mr. Payne?
    Mr. Payne. Thank you. Once again, with the small group of 
U.S. military there, talking to some Haitian business people 
and American business people on our last trip, there was a 
desire, of course, to have this small contingent there. Of 
course, I think the Congress voted that they should leave. The 
MICIVIH, how do you see them being there? What sort of 
positiveness is done, if any? What do you think, or won't it 
make any difference whether there is only a handful of them? 
When I was there, they had a big softball game going on so I 
don't guess there are necessarily very key decisions being made 
there. But the fact that they are there, some people felt there 
was kind of a reassuring thing. What do you think about them 
coming out or staying there?
    Mr. Romero. We lost about half of the contingent of MICIVIH 
that is there to promote respect for human rights and monitor 
the progress. We lost about half of them, about 40, when we 
lost funding several months ago. The other 40, approximately, 
are there. I think that we are scheduled to lose the police 
monitoring entity by the end of November, this month, 
approximately about 300 of them. Hopefully, we will be able to 
at least keep a semblance of a presence in Haiti. I think it is 
very, very important that there be an international presence. I 
think that in terms of the reconstruction of police force, 
democratic institutions at large, we are still at a very 
fragile period, and an international presence is indispensable 
for being able to enable those institutions to strike and to 
move on under their own weight.
    Mr. Payne. I have a question. I am trying to get a picture. 
There are a number of people who of course have been opposed to 
Haiti, opposed to the intervention of the U.S. military, have 
decided that Haiti is a failure even before Aristide was 
restored, just some HH'ers I call them, Haters of Haiti. Now, 
we look at the fact that people say that Aristide's people are 
intending to control the police. They seem to somehow be 
leaning toward him. On the other hand, 38 policemen have been 
killed; and Aristide is supposed to be--anything that happens 
bad, Aristide does it. So you know, I kind of get confused when 
these theories--they are all theories that come out, the police 
they think are supportive of Aristide, and they should be 
independent, and then if an election comes up and the police 
are favorable to Aristide that is bad.
    On the other hand, 38 policemen have been killed. Of course 
Aristide's people wouldn't kill their friends. You see, there 
is a lot of disconnect. You say Jean Lamy was killed. When 
anyone opposed to Aristide is killed--I am not defending--I 
have been down there about a dozen times in the last 7 or 8 
years, but it is clearly, and this--and this is around the 
House of Representatives--the HH'ers--Aristide did it. On the 
other hand, when an Aristide person is killed, it has got to be 
drug related.
    It appears that there is just a continuing case built up 
against Aristide that anything wrong is done by him; anything 
that may be going in the right direction, he is opposed to. I 
just wondered, is that the general feeling around? Because like 
I said, I get confused. There have been some people like the 
FRAPH who are not choir boys. I am sure that some of them are 
still around. They were not necessarily pro-Aristide, even the 
Tonton Macoutes back in the old regime. So I guess my point is 
that there seems to be enough tough people to go around for 
everyone, but the conclusion is always that if it is wrong or 
bad or conspiracy against progress, it is Aristide, no one 
else. Can you--have you seen that, or maybe, it is just I have 
gotten a one-sided picture, or could you kind of sort it out 
for me a little bit since that is your job?
    Mr. Romero. I wish I could sort it out better for you, 
Congressman Payne. I think there is just--there is probably a 
whole lot more that we don't know when you talk about violence 
and political assassination in Haiti than what we know. But I 
think there are a couple of givens here. One is that President 
Preval could exercise a great deal of leadership in showcasing 
and reinforcing the public dimension of support for the police. 
I think there is a lot to be done that has not been done.
    Hopefully, with Bob Manuel's departure and the somewhat 
antagonistic relationship between the President and Bob Manuel, 
the President can come forth, Vice President can come forth, 
and demonstrate their very strong support for an apolitical 
police force, effective police force in Haiti. I think the 
other part of the equation too is certainly the Lavalas folks 
do not have a premium on violence in Haiti. But I do think that 
ex-President Aristide has an opportunity to take a big bite out 
of the violence by this nonaggression pact that will be on the 
table shortly and that I hope he signs.
    Mr. Payne. Thank you.
    Chairman Gilman. Thank you, Mr. Payne. Mr. Delahunt.
    Mr. Delahunt. Thank you. Along those lines of confusion--
and I think it is really important that we are clear that the 
information that we receive from Haiti is vague and nebulous at 
best.
    Mr. Romero. Clear.
    Mr. Delahunt. There are some who would suggest, as Mr. 
Payne just articulated very well, that everything bad is the 
responsibility of ex-President Aristide, and that anything good 
is clearly just mere happenstance. Now, I don't know, and I 
don't think that you know, Secretary Romero; but I do agree 
that the former-President does have an opportunity to exercise 
some leadership here. He clearly is well respected by a 
majority of the Haitian people. I think it was Mr. Goss who 
indicated that his election in 1990 was a valid election. He 
secured, I think it was 67 percent of the vote at that point in 
time.
    I take this opportunity to--and I mean this sincerely, 
through you to the Haitian government, to whatever contacts we 
might have with the former-President--I think it is important 
for him to sign this particular nonaggression pact, if you 
will. Because I think it is a statement, and I think, given his 
stature in Haitian society, it is important. I think many 
friends of the former-President have indicated some 
disappointment in his lack of clarity on this issue, and I 
would put myself in that particular category.
    The former-President had an opportunity to put himself in a 
position in terms of Haitian history, which has been a very sad 
history--over 200 years of brutality--to really accomplish what 
President Mandela has done in South Africa. I think we are at a 
very critical juncture here in terms of where Haitian society 
goes or where this country goes. I think the reality is there 
is an opportunity here for the former-President to achieve a 
role in his nation's history that is clearly dramatic in terms 
of bringing it to and nurturing a nation's democracy that you 
mentioned.
    I just give you that opinion to transfer it. Maybe I will 
have an opportunity to convey it myself. But it is such a bad 
mistake to completely reach conclusions about incidents. I am 
aware of two or three different incidents.
    Let's put this in context. Would you agree the most recent 
incident, which was November 6th, the police did intervene and 
made an arrest? There haven't been any political assassinations 
that I am aware of in the past several months that are 
conclusively determined to be political assassinations. We are 
making some progress. It is not what I would like to see; it is 
not what anybody would like to see, but we have got to 
understand the reality of Haiti at this point in time.
    You know that I opposed, on the Floor, the amendment that 
reduced the funding, or rather I have opposed the reduced 
funding for MICIVIH. I would encourage the Administration, 
given the tenuous nature of the next 4 or 5 months, to reopen 
negotiations with the appropriate Members of Congress to see 
whether, on an emergency basis, that we could not just simply 
restore that funding, but to increase it, at least for a period 
of time.
    Many allegations have been made about the police. What we 
have done is we have reduced the funding for that agency which 
provided a mechanism to inform the world about the conduct of 
the police. It is just counterintuitive. It just doesn't make 
any sense. It is not a lot of money. If we talk about democracy 
and we talk about our concern about the police, this is 
probably the most opportune time we will ever have. So I would 
make that request through you to the appropriate officials in 
the Administration to reopen discussions with those to see that 
if, not only can we restore the funds, but to raise them to a 
level so that we can hopefully assist in assuring the integrity 
of the elections on March 19th.
    Chairman Gilman. Thank you, Mr. Delahunt. Mr. Ackerman.
    Mr. Ackerman. Thank you, Mr. Chairman. Mr. Secretary, could 
you tell us how much electoral assistance in dollars we now 
provide to Haiti.
    Mr. Romero. Congressman Ackerman, I think what we are 
talking about is approximately $16 million for the conduct of, 
to the work up and then the actual elections, and counting two 
rounds, and approximately $2 million of that would be earmarked 
for the police, equipment, other kinds of things related to 
security, including renting two helicopters.
    Mr. Ackerman. Is that, in your judgment, sufficient so that 
we could guarantee fair and free elections?
    Mr. Romero. I think the sum is sufficient, Congressman 
Ackerman. I think what is deficient is the amount of policemen 
on the ground in Haiti, and when you are talking about 
approximately 5,500 policemen, more or less, you are talking 
about the ability to put probably about 4,000 cops in the 
various voting precincts, various voting centers, of which 
there will be about 13. Certainly the cops will be sent to 
those places where one would expect to have some potential for 
disruption. But you begin to see the magnitude of the 
differences between what law enforcement has at its disposal 
and the elections themselves.
    Mr. Ackerman. So the number of police are insufficient?
    Mr. Romero. Absolutely.
    Mr. Ackerman. Is there a way that we can help with that?
    Mr. Romero. Yes. But over the short term there really is no 
easy fix.
    Mr. Ackerman. Is that a function of dollars or policy?
    Mr. Romero. It is a function of absorption. It is a 
function of the attrition rate of the police whereby the long 
hours, 12 hour days, 6 days a week, the relatively low pay 
compared to other places in the economy is causing an attrition 
rate that is equal to, and I think may even begin surpassing, 
the intake rate.
    Mr. Ackerman. If people leave the police force, where are 
they going?
    Mr. Romero. There are just all kind of jobs, as security 
guards and other kinds of things in the economy.
    Mr. Ackerman. So security guards are paying more than 
police?
    Mr. Romero. Apparently.
    Mr. Ackerman. In 1995, Aristide reneged on his commitment 
that he had made to privatize many government enterprises. 
International assistance basically came to not a grinding stop, 
but it was reduced enormously. If he were to be elected again, 
what do you think his approach to economic reforms would be?
    Mr. Romero. It would be hard to say, Congressman Ackerman. 
I think there is at least a rhetorical commitment to economic 
reform, to include privatization. But ex-President Aristide has 
mentioned his intention to talk about the issue of reform and 
privatization in the context of a national dialogue, and I 
think it still remains to be seen whether that would mean an 
acceleration of the process or a further paralysis of the 
privatization process.
    Mr. Ackerman. Thank you. The Congress has basically 
prohibited DOD from maintaining a continued presence there 
beyond the end of May of this coming year. In view of the 
political violence and the impending elections, problems in the 
police that you have cited, many believe that a U.S. presence 
should continue there. What would your response be to that, and 
what do you think the effect would be if we removed the U.S. 
troops?
    Mr. Romero. Congressman, I think, without the slightest bit 
of hyperbole, that the U.S. military presence there has had a 
very important symbolic value, and that is that we care, we are 
engaged as a people, and that essentially we are behind those 
Haitian democrats who want to move ahead on a democratic 
agenda. But by far, the more important entity on the ground, in 
terms of law and order, is obviously the Haitian police and 
also the international organizations that we have established 
with the Haitians to advance human rights practices and 
monitoring the police. Those institutions will face essentially 
an end to funding by the end of November, and the end of 
December, respectively. We are hoping to stand up another 
organization that will fold all of these functions into one, 
and hopefully would be sufficient enough. But that is really 
where the support must come.
    Mr. Ackerman. You have come back to the police on a couple 
of these questions now. Do we have a specific program or a 
policy? Have we engaged them in discussions on raising the 
salaries of police to help reverse that rate of attrition?
    Mr. Romero. I am not so sure we have had a recent 
discussion on salaries, but we have had repeated discussions on 
issues related to supporting, publicly supporting, the police, 
enhancing their stature, enhancing their morale. I worked in El 
Salvador as a Chief of Mission in 1992 and 1993. We created a 
10,000 man police force from nothing, and it was only because 
of the strong leadership of then President Freddie Cristiani 
that that was able to be done. I don't see that strong 
leadership as it relates to the police, at least not yet.
    Mr. Ackerman. Thank you. I yield back my time, Mr. 
Chairman.
    Chairman Gilman. Thank you, Mr. Ackerman. One last question 
before you leave, Mr. Secretary. The list of major drug 
producing and major transit nations was due to be submitted on 
November 1st to the Congress. It is now a week late. The 
designation of Cuba on the major's list is one that many 
Members have been following very closely. I hope that you 
aren't waiting until Congress leaves town before sending us a 
list. The head of the Spanish National Police told my staff 
last week that, as to the 7\1/2\ tons of cocaine from Columbia 
intended to transit Cuba last December, that all the Spanish 
authorities know it was headed for Cuba, and not Spain. 
Secretary Romero, can you tell us when we could expect to 
receive the list?
    Mr. Romero. Mr. Chairman, as you well know, I don't have 
responsibility, direct responsibility, for the list since I 
only deal in the Western Hemisphere, and it is a worldwide 
list.
    Chairman Gilman. I recognize it is out of your----
    Mr. Romero. But that having been said, I would hope that 
you would get it in the next couple of days. I know that we are 
putting our finishing touches on it, both the State Department, 
and White House a few days ago.
    Chairman Gilman. Thank you, Mr. Secretary. Thank you for 
being here today. We thank you for your patience.
    Mr. Romero. Thank you.
    Chairman Gilman. The Committee stands adjourned.
    [Whereupon, at 12:25 p.m., the Committee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                            November 9, 1999

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T3500.001
    
    [GRAPHIC] [TIFF OMITTED] T3500.002
    
    [GRAPHIC] [TIFF OMITTED] T3500.003
    
    [GRAPHIC] [TIFF OMITTED] T3500.004
    
    [GRAPHIC] [TIFF OMITTED] T3500.005
    
    [GRAPHIC] [TIFF OMITTED] T3500.006
    
    [GRAPHIC] [TIFF OMITTED] T3500.007
    
    [GRAPHIC] [TIFF OMITTED] T3500.008
    
    [GRAPHIC] [TIFF OMITTED] T3500.009
    
    [GRAPHIC] [TIFF OMITTED] T3500.010
    
    [GRAPHIC] [TIFF OMITTED] T3500.011
    
    [GRAPHIC] [TIFF OMITTED] T3500.012
    
    [GRAPHIC] [TIFF OMITTED] T3500.013
    
    [GRAPHIC] [TIFF OMITTED] T3500.014
    
    [GRAPHIC] [TIFF OMITTED] T3500.015
    
    [GRAPHIC] [TIFF OMITTED] T3500.016
    
    [GRAPHIC] [TIFF OMITTED] T3500.017
    
    [GRAPHIC] [TIFF OMITTED] T3500.018
    
    [GRAPHIC] [TIFF OMITTED] T3500.019
    
    [GRAPHIC] [TIFF OMITTED] T3500.020
    
    [GRAPHIC] [TIFF OMITTED] T3500.021
    
    [GRAPHIC] [TIFF OMITTED] T3500.022
    
    [GRAPHIC] [TIFF OMITTED] T3500.023
    
    [GRAPHIC] [TIFF OMITTED] T3500.024
    
    [GRAPHIC] [TIFF OMITTED] T3500.025
    
    [GRAPHIC] [TIFF OMITTED] T3500.026
    
    [GRAPHIC] [TIFF OMITTED] T3500.027
    
    [GRAPHIC] [TIFF OMITTED] T3500.028
    
    [GRAPHIC] [TIFF OMITTED] T3500.029
    
    [GRAPHIC] [TIFF OMITTED] T3500.030
    
    [GRAPHIC] [TIFF OMITTED] T3500.031
    
    [GRAPHIC] [TIFF OMITTED] T3500.032
    
    [GRAPHIC] [TIFF OMITTED] T3500.033
    
    [GRAPHIC] [TIFF OMITTED] T3500.034
    
    [GRAPHIC] [TIFF OMITTED] T3500.035
    
    [GRAPHIC] [TIFF OMITTED] T3500.036
    
    [GRAPHIC] [TIFF OMITTED] T3500.037
    
    [GRAPHIC] [TIFF OMITTED] T3500.038
    
    [GRAPHIC] [TIFF OMITTED] T3500.039
    
    [GRAPHIC] [TIFF OMITTED] T3500.040
    
    [GRAPHIC] [TIFF OMITTED] T3500.041
    
    [GRAPHIC] [TIFF OMITTED] T3500.042
    
    [GRAPHIC] [TIFF OMITTED] T3500.043
    
    [GRAPHIC] [TIFF OMITTED] T3500.044
    
    [GRAPHIC] [TIFF OMITTED] T3500.045
    
    [GRAPHIC] [TIFF OMITTED] T3500.046
    
    [GRAPHIC] [TIFF OMITTED] T3500.047
    
    [GRAPHIC] [TIFF OMITTED] T3500.048
    
    [GRAPHIC] [TIFF OMITTED] T3500.049
    
    [GRAPHIC] [TIFF OMITTED] T3500.050
    
    [GRAPHIC] [TIFF OMITTED] T3500.051
    
    [GRAPHIC] [TIFF OMITTED] T3500.052
    
    [GRAPHIC] [TIFF OMITTED] T3500.053
    

</pre></body></html>
